REVIEW OF GSA’S IMPLEMENTATION OF
  OMB CIRCULAR A-123, APPENDIX A
 REPORT NUMBER: A070082/B/F/F07010
           JULY 12, 2007
The audit was conducted from November 2006 through March 2007, and was
performed in accordance with generally accepted government auditing standards.

RESULTS OF REVIEW

Based upon our observations, GSA has effectively implemented policies and
procedures to comply with the requirements of OMB Circular A-123, Appendix A. In FY
2005 GSA established a Senior Assessment Team (SAT), which is tasked with
providing leadership, oversight, and accountability for GSA’s internal controls over
financial reporting, as recommended in the new requirements of Appendix A. The
assessment of the agency’s internal controls over financial reporting is performed by
GSA’s project team in conjunction with Cotton & Company, a contractor hired to assist
in the internal control testing. The project team conducts internal control testing on a
rotational basis with all regions being tested over a three-year timeframe and finance
centers tested annually. Such testing includes evaluating controls at the process level,
entity level, and transaction level as required by Appendix A. The results of these
assessments are reported to the SAT. The SAT then recommends the level of
assurance the Administrator should provide on the internal controls over financial
reporting. Furthermore, GSA incorporates the results of the A-123 reviews into the
Federal Managers’ Financial Integrity Act (FMFIA) assurance statement process and is
testing a database for internal control reviews.

While our review found that GSA has adequately implemented the requirements of
OMB Circular A-123, Appendix A, and this report contains no formal findings or
recommendations, there is an issue we feel may warrant management’s attention.
Specifically, it appears that it would be difficult to ascertain the validity of the assurance
statements submitted as part of the FMFIA process by those regions not included in the
annual A-123 reviews. This results in a low level of confidence in the assurance
statements submitted by those regions that were not reviewed as part of the A-123
internal control testing for that year. We believe this issue should be followed up on
during our annual FMFIA review and we are willing to meet with OCFO management on
this issue to determine a proper course of action.

We wish to thank the Office of the Chief Financial Officer and regional personnel for the
assistance and courtesies extended to us during this review. This report does not
require a response, however, should you or your staff have any questions, please
contact me on (202) 501-0006.



Anthony W. Mitchell
Audit Manager
Finance and Administrative Audit Office (JA-F)




                                           2
Report Distribution                                   Copies

Office of the Chief Financial Officer (B)               3

Audit Follow-up and Evaluation Branch (BECA)            1

Audit Planning, Policy, and Operations Staff (JAO)      1

Assistant Inspector General for Auditing (JA)           1

Assistant Inspector General for Investigations (JE)     1




                                            3
